                                   u.s. Department of Education
                                               Office of Inspector General

                                                501 I Street, Suite 9-200 

                                             Sacramento, California 95814 

                                       Phone (916) 930-2388· Fax (916) 930-2390 




                                                      January 17, 2003


MEMORANDUM

TO: 	                      Sally Stroup
                           Assistant Secretary
                           Office of Postsecondary Education

FROM:                      GIOriaPilotti~~
                           Regional Inspector General for Audit

SUBJECT: 	                 MANAGEMENT INFORMATION REPORT
                           Southern Association ofColleges and Schools, Commission on Colleges'
                           Accreditation Standards for Student Achievement and Measures of
                           Program Length
                           Control No. ED-OIG/A09-COOI8

Attached is our subject report providing infonnation on the results of our review of the Southern
Association of Colleges and Schools, Commission on Colleges' standards for student
achievement and program length as required by the Higher Education Act, Section 496(a)(5).
The report does not contain recommendations for Department action, but does provide
infonnation that you may find useful in making management decisions related to Federal
recognition of accrediting agencies.

If you have any questions or wish to discuss the contents of this report, please contact me at
(916) 930-2399. Please refer to the above control number in all correspondence relating to this
report.


Attachment


Electronic cc: 	John Barth, Accreditation and State Liaison Staff Director, OPE
                Carol Griffiths, Accrediting Agency Evaluation Chief, OPE
                David Bergeron, Audit Liaison Officer, OPE




                                       501 I Street, Suite 9-200, SACRAMENTO, CA 95814 

          Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations 

                                   U.S. Department of Education 

                                             Office of Inspector General


                                           501 I Street, Suite 9-200 

                                        Sacramento, California 95814 

                                  Phone (916) 930-2388 • Fax (916) 930-2390


                                                      January 17, 2003
                                                                                                           ED-OIG/A09-C0018


James T. Rogers, Executive Director 

Southern Association of Colleges and Schools, 

   Commission on Colleges
1866 Southern Lane
Decatur, Georgia 30033-4097

Dear Mr. Rogers:

This is the Office of Inspector General’s Final Management Information Report, entitled
Southern Association of Colleges and Schools, Commission on Colleges’ Accreditation
Standards for Student Achievement and Program Length.

The purpose of our review of the Southern Association of Colleges and Schools, Commission on
Colleges (SACS) was to (1) identify SACS’ standards for success with respect to student
achievement and measures of program length as required by the Higher Education Act (HEA),
Section 496(a)(5), and (2) evaluate SACS’ management controls for ensuring that institutions
adhere to its standards for student achievement and measures of program length and that
consistent enforcement action is taken when institutions are not in compliance with the
standards. This management information report, describing SACS’ standards and its monitoring
and enforcement policies and procedures, is being provided to assist the U.S. Department of
Education (Department) in its oversight of accrediting agencies. We also provide suggestions for
SACS to consider for enhancing its standards and management controls.

We received written comments from SACS on a draft of this report. SACS disagreed with the
OIG’s conclusions that the agency’s standards covering student achievement and program length
have inherent limitations, but stated it would forward the OIG suggestions to its Executive
Council of the Commission on Colleges for consideration at its December meeting. SACS’
comments and our response are summarized at the end of the REVIEW RESULTS section of the
report. The full text of SACS’ comments is included as an attachment.


                                               REVIEW RESULTS
The Secretary of the Department recognizes SACS as a regional accrediting agency. To achieve
this recognition, the HEA requires accrediting agencies to, among other requirements, establish
standards for student achievement and measures of program length.

SACS’ standards that encompass student achievement are general, that is, the standards do not
include specific measures to be met by institutions. The agency requires accredited institutions
to develop their own processes for assessing student achievement. We found that SACS

         Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation
ED-OIG/A09-C0018                                                                       Page 2 of 16



provided institutions with detailed guidance on establishing and documenting their processes for
evaluating educational programs and the use of both quantitative and qualitative data to
demonstrate student achievement.

SACS’ standards on program length require institutions to specify the number of credit hours in
an educational program and provide guidance on program content. SACS did not define what
constitutes a credit hour. The Executive Director provided a definition, but SACS has not
included the definition in its publications.

Since SACS’ standards do not contain specific measures for student achievement, the agency has
a limited ability to compare institutions’ performance. Also, since the standards do not explicitly
state that educational programs must meet the institution’s expected educational results or define
what constitutes a credit hour, SACS may have limited ability to take enforcement action when
institutions’ programs have not demonstrated student achievement or when the program length is
questionable.

We concluded that SACS has policies and procedures in place to ensure institutions adhere to its
standards and that the agency enforces its standards, except monitoring student achievement
throughout the institution’s accreditation period is limited to institutions that were previously
identified as not meeting a standard. We offered suggestions for enhancing SACS’ standards
and management controls.

STANDARDS FOR STUDENT ACHIEVEMENT
AND MEASURES OF PROGRAM LENGTH

Section 496(a)(5) of the HEA requires accrediting agencies to establish accreditation standards
that assess the institution’s—

       (A) success with respect to student achievement in relation to the institution’s
           mission, including, as appropriate, consideration of course completion, State
           licensing examinations, and job placement rates;... [and]
       (H) measures of program length and the objectives of the degrees or credentials
          offered;....

The regulations that address accrediting agencies’ standards for student achievement and
measures of program length mirror the statutory language.

SACS’ Standard for Student Achievement

SACS’ standard for student achievement is embedded in its criterion on Institutional
Effectiveness in its 1998 Criteria for Accreditation. Section 3.l of Institutional Effectiveness
states “[t]he institution must define its expected educational results and describe its methods for
analyzing the results.”

SACS expects each institution to develop a broad-based system to determine institutional
effectiveness appropriate to its own context and purpose, to use the purpose statement as the
foundation of planning and evaluation, to employ a variety of assessment methods (quantitative
ED-OIG/A09-C0018                                                                               Page 3 of 16



and qualitative), and to demonstrate use of the results of the planning and evaluation process for
the improvement of educational programs. SACS emphasizes in its criteria that the institution
must evaluate its success with respect to student achievement including, as appropriate,
consideration of course completion, state licensing examinations, and job placement rates.

SACS includes a list of potential measures in its criteria on Institutional Effectiveness.

                         Measures Listed in 1998 Criteria for Accreditation
        evaluation of instructional delivery           results of admissions tests for students
        adequacy of facilities and equipment            applying to graduate or professional schools
        standardized tests                             job placement rates
        analysis of theses, portfolios and recitals    results of licensing examinations
        completion rates                               evaluations by employers
        follow-up studies of alumni                    performance of student transfers at receiving
                                                         institutions

SACS’ Resource Manual on Institutional Effectiveness provides guidelines for interpreting and
responding to SACS’ accreditation criteria on institutional effectiveness. The Resource Manual
emphasizes that Section 3.1 of the 1998 Criteria for Accreditation includes use of quantitative
measures.

         Each institution is thus required to state its expectations regarding the important
         results of the educational process and then to describe the methods that will be
         used in discovering the extent to which those expectations are realized.
         Significant implications are that expected educational results may be stated in
         qualitative as well as quantitative terms and that the description of methods for
         ascertaining results should include information as to how, where, when, and by
         whom the assessment effort will be accomplished. While some important goals
         and educational results are not readily “measurable,” this limitation should not
         necessarily preclude assessment of the extent to which most have been
         accomplished.

The Resource Manual also provides several examples of assessment procedures (measures) for
education programs with different educational purposes.

In the preamble to the 1999 proposed rules, the Secretary stated that accrediting agencies should
establish quantitative standards—for completion rates, job placement rates, and pass rates on
State licensing examinations—for vocational education programs. SACS has not established
quantitative standards for its institutions that offer vocational education programs, but holds
these institutions to the same standards as all other accredited institutions. According to SACS’
Associate Executive Director for Commission Support, about 55 percent of SACS-accredited
institutions offer vocational and certificate programs.

SACS’ new standards, which were approved in December 2001 and will become effective
in 2004, contain the same requirements as the 1998 Criteria for Accreditation, except the new
standards do not refer to use of “quantitative and qualitative data” or contain a list of potential
measures. However, SACS’ Resource Manual on Institutional Effectiveness, which has not been
ED-OIG/A09-C0018                                                                        Page 4 of 16



revised, contains a similar reference to “quantitative and qualitative data” and lists potential
measures that are similar to those listed in SACS’ current standards.

SACS’ standard for student achievement and its requirements for meeting this standard have
inherent limitations.

      The agency may not be able to take enforcement action against institutions that are
       offering programs that have not demonstrated student achievement since the standards do
       not explicitly require that an institution’s programs meet their defined expected
       educational results.

      The agency may not be able to compare educational results of institutions with similar
       missions and purposes because the institutions may not use similar measures.

SACS’ Standards for Measures of Program Length

SACS addresses measures of program length within its criteria on Educational Programs.
Section 4.2 - Undergraduate Programs states—

       An institution must clearly define what is meant by a major or an area of
       concentration and must state the number of credits required for each. An
       adequate number of hours with appropriate prerequisites must be required in
       courses above the elementary level. [Emphasis in original]

SACS has additional requirements for courses offered in a concentrated time period.

       Courses offered in non-traditional formats, e.g., concentrated or abbreviated time
       periods, must be designed to ensure an opportunity for preparation, reflection and
       analysis concerning the subject matter. At least one calendar week of reflection
       and analysis should be provided to students for each semester hour, or equivalent
       quarter hours, of undergraduate credit awarded. The institution must demonstrate
       that students completing these programs or courses have acquired equivalent
       levels of knowledge and competencies to those acquired in traditional formats.
       [Emphasis in original]

At the end of Section 4.2, SACS emphasizes that “[t]he institution must demonstrate that
program length, clock hours or credit hours, and tuition and fee charges are appropriate for the
degrees and credentials it offers.”

Neither the 1998 Criteria for Accreditation nor its other documents provided a definition or
criteria for a “credit hour.” According to SACS’ Executive Director, the following formulas are
used when evaluating program length: A three-credit course generally consists of three one-hour
classes per week for a full semester (20 to 22 weeks). If the institution uses a quarter system,
a five-credit course would include about five 45-50 minute classes per week for a full quarter
(12 to 15 weeks). In addition to the class time hours, a student would be required to spend time
on homework, writing and reading assignments, projects, lab work, etc. SACS does not require
a specific amount of homework and other outside class activities. Since the standards do not
ED-OIG/A09-C0018                                                                     Page 5 of 16



define what constitutes a credit hour or specify the amount of outside activities, SACS may have
limited ability to take enforcement action when an institution’s program length or credit hour
assignments are questionable.

SACS’ new standards, which will become effective in 2004, do not include the section on
additional requirements for courses offered in a concentrated time period. Instead, the new
standards state, “The institution employs sound and acceptable practices for determining the
amount and level of credit awarded for courses, regardless of format or mode of delivery.”
This requirement will apply to on-campus, off-campus, and distance learning programs. The
new standards do not define “sound and acceptable practices.” Thus, SACS’ ability to enforce
the new standard may also be limited.

Systematic Review of Standards

The regulations at 34 C.F.R. § 602.21 address the requirements for an accrediting agency’s
systematic review of its standards. Paragraph (a) states “[t]he agency must maintain a systematic
program of review that demonstrates that its standards are adequate to evaluate the quality of the
education or training provided by the institutions and programs it accredits and relevant to the
educational or training needs of students.” Paragraph (b) lists the following required attributes
of the review:
       [T]he agency must ensure that its program of review:
       (1) Is comprehensive;
       (2) Occurs at regular, yet reasonable, intervals or on an ongoing basis;
       (3) Examines each of the agency’s standards and the standards as a whole; and
       (4) Involves all of the agency’s relevant constituencies in the review and affords
       them a meaningful opportunity to provide input into the review.

To meet this requirement, SACS’ Policies of the Commission on Colleges requires that a Review
Committee, with representatives from each state, every institutional level, and the public, be
appointed every seven years to conduct a comprehensive study of the standards to ascertain
whether they are adequate to evaluate the quality of the education or training provided by the
institutions and relevant to the educational needs of students. The policy states that the
Committee “will examine each of the standards and the standards as a whole, will solicit
comments from the membership and other interested parties, and will consider all comments and
recommendations received since the last review period.”

In December 2001, the SACS’ College Delegate Assembly approved new standards that were the
results of an examination conducted by such a committee. We discussed the portions of the new
standards that related to student achievement and program length in the previous two sections of
this report.
ED-OIG/A09-C0018                                                                     Page 6 of 16



Suggestions for Enhancing the Standards for
Student Achievement and Program Length

To enhance its established standards for student achievement and measures of program length,
we suggest that SACS consider—

      Revising its new standard for student achievement to explicitly state that programs must
       fulfill the institution’s defined expected educational results.

      Analyzing the measures used in assessments at institutions with similar programs and
       developing measures for incorporation in the agency’s standard for student achievement.

      Establishing quantitative standards for completion rates, job placement rates, and pass
       rates on State licensing examinations, as applicable, for vocational education programs
       offered by its accredited institutions.

      Providing institutions with written guidance on “sound and acceptable practices” for
       assigning credit hours to programs. The guidance should include the agency’s formulas
       for assigning credit hours, required levels of outside preparation, and a requirement that
       institutions submit a written justification for any deviation from the guidance.

MANAGEMENT CONTROLS FOR ENSURING
ADHERENCE TO STANDARDS

The regulations at 34 C.F.R. § 602.18 require an accrediting agency to “consistently apply and
enforce its standards to ensure that the education or training offered by an institution or
program... is of sufficient quality to achieve its stated objective for the duration of any
accreditation or preaccreditation period granted by the agency.” In addition, 34 C.F.R. § 602.19
requires the agency to (a) “reevaluate, at regularly established intervals, the institutions or
programs it has accredited or preaccredited... [and] (b)... monitor institutions or programs
throughout their accreditation or preaccreditation period to ensure that they remain in compliance
with the agency's standards.”

SACS’ Monitoring Activities and Procedures

SACS has policies and procedures to ensure institutions adhere to its standards for student
achievement and measures of program length (including substantive changes), except monitoring
institutions’ systems for determining institutional effectiveness may only be evaluated during
reaccreditations, unless the institutions were subject to follow-up monitoring for previously
identified deficiencies. This limits SACS’ ability to monitor an institution’s adherence to the
standard during the accreditation period.

To monitor institutions, SACS uses institutional self-studies, visiting committee reviews, and
follow-up reports. Each institution is required to conduct an institutional self-study and have
a visiting committee review at least every 10 years. SACS also requires institutions to submit
annual reports containing financial and student enrollment information. The annual reports do
not contain information on student achievement or program length.
ED-OIG/A09-C0018                                                                                Page 7 of 16



Institutional Self-Studies. SACS’ publication, Handbook for Institutional Self-Study, provides
institutions with detailed instructions for conducting a self-study and preparing a self-study
report. The Handbook includes the following in its description of a satisfactory self-study report:

        The self-study report deals sufficiently with all requirements of the Criteria in
        order to enable members of a visiting committee to evaluate the institution in
        relation to these requirements. In this regard, the institution should provide
        adequate information and analyses in the text of the report or in the Appendices to
        indicate its compliance with the Criteria. The narrative should include a balanced
        review of the strengths and weaknesses of the institution and sufficient data to
        provide the committee with information concerning compliance with the Criteria.
The Handbook specifically requires that the self-study includes an examination of the
institution’s planning and evaluation process, which encompasses student achievement. For
distance learning activities, the Handbook requires that the analyses be conducted in accord with
the general self-study guidelines and be conducted by those not directly connected with the
coordination and implementation function of the distance learning activities.

Our review of 10 institutional files1 confirmed the institutional self-studies contained information
specific to SACS’ standards covering student achievement and program length. The following
table provides a partial list of the student assessment measures found in the institutional self-
study reports and other documents located in SACS’ files:

                                     Student Assessment Measures
Measures of students’ written and oral                    Bar pass rates and other state and national licensing
  communications skills                                     examinations
Projects, papers, or oral presentations                   First time scores on a state exam
Course grades based on exams and lab reports              National exams given at the end of the second and
Completion of required “capstone” courses at the            third years of medical school
  end of the course sequence that require students        Surveys of graduates in their first year of residency
  to apply cumulative skills learned                      Residency directors’ evaluations of medical school
Standardized state and national examinations                students
Student satisfaction                                      Job placement statistics and placement rates
Senior assessment exam                                    Successful employment in major field
Surveys utilizing a statistically valid test instrument   Increased employment success
Graduate rates                                            Monitoring starting salaries
Exit surveys                                              Sustained employment
Alumni surveys

For program length, the institution is required to describe how it ensures that program length,
clock hours or credit hours, tuition and fee charges are appropriate for the degrees and
credentials offered. For example, one institution provided the following response in its
institutional self-study:


1
 The 10 institutions were judgmentally selected from the 83 institutions due for reaccreditations in
calendar year 2001. Since the sample was judgmentally selected, the results of our review may not be
representative of the entire population. The PURPOSE, SCOPE, AND METHODOLOGY section of the
report provides additional information on the sample selection methodology.
ED-OIG/A09-C0018                                                                              Page 8 of 16



        The Board of Directors must approve any new program or field of study offered.
        Program length, clock hours and credit hours are all reviewed in the approval
        process. College programs in traditional and non-traditional formats are
        comparable to those of similar institutions in the region in every respect
        contemplated in the Criterion. Refer to catalogs of various institutions and other
        documentation on file in the Display Room. The Academic Council and Registrar
        engage in the activity of comparing courses, formats, calendar length and clock
        time, along with a determination of competitive standards in the overall academic
        environment.

Visiting Committee Review. The visiting committee (peer evaluators) determines the extent to
which the institution complied with the 1998 Criteria for Accreditation at the time of the visit
and that the institutional self-study met SACS’ requirements. SACS’ Handbook for Peer
Evaluators provides the peer evaluators with guidelines for applying the Criteria. The
guidelines, which list persons to interview, questions to address, documents to review, and
helpful pointers, include the following related to student achievement and measures of program
length:

                      Peer Evaluator Questions and Instructions Related to
                     Student Achievement and Measures of Program Length
Is the educational effectiveness of each program being measured by appropriate means? What are they?
Does the institution have a plan for ascertaining the success of its graduates?
Review information on assessment procedures and results for programs and general education: student
evaluations, test scores, exit data, employer surveys, program reviews, job placement statistics, surveys of
graduates, etc.
Does the self-study provide adequate documentation of effectiveness of the educational program?
Include in your evaluation any programs which are offered through non-traditional delivery methods or
which are offered at off-campus sites.
Has the institution developed a reasonable plan for evaluating the effectiveness of its distance learning
activities?
Are degree requirements clear, reasonable, and enforced consistently?
Review statements of goals and objectives for general education and for programs.
Are admissions, degree completion, curriculum, and instructional design policies and procedures [for
distance learning activities] similar to those used for traditional campus-based programs?
Are goals and objectives, and skills and competencies, the same for courses offered on the main campus
as those offered through distance learning activities?


The guidelines do not explicitly state that peer evaluators are to confirm that the institution used
SACS’ formulas for determining credit hours or assess the validity of justifications for any
deviation.
ED-OIG/A09-C0018                                                                                Page 9 of 16




SACS’ Handbook for Peer Evaluators and its Handbook for Committee Chairs provide guidance
and a suggested format for preparing the visiting committee report. The peer evaluators are
instructed to include in the report comments, recommendations and suggestions addressing each
section in the 1998 Criteria for Accreditation. The guidance does not include a requirement for
peer evaluators to report on institutional success with respect to student achievement for each
educational program and the institution overall.

Our review of 10 institutional files confirmed that the visiting committee reports contained
comments related to the standards for student achievement and program length and, if applicable,
recommendations and suggestions for improvements. For 7 of the 10 institutions, the visiting
committee reports identified deficiencies related to student assessments. The reports did not
identify deficiencies for measures of program length.

Follow-up Reports and Special Committee Visits. To monitor institutions with identified
problems, SACS may require an institution to submit follow-up reports. Follow-up reports may
be required if the Commission determines that an institution (1) could be in non-compliance with
accreditation standards in the future if steps are not taken to correct the situation; (2) has failed to
comply with accreditation standards, but deficiencies are minor and can be corrected within a
short time; or (3) has failed to comply with agency policies and procedures or failed to provide
requested information. Also, SACS may have a special committee conduct a site visit to
determine whether the institution has continued to comply with accreditation standards.
Institutions are allowed up to two years to remedy deficiencies.

SACS’ data showed that 56 of the 83 institutions, which went through the reaccreditation process
during calendar year 2001, were required to provide follow-up reports and/or have additional site
visits.2 As shown in the following table, SACS consistently required follow-up for a significant
number of institutions on areas related to its standard on student achievement.

                Institutions with Follow-Up Required to Address Deficiencies
                      Related to Section 3.1 of Institutional Effectiveness
                                                              1998     1999    2000     2001
        Institutions seeking reaccreditation                    68      74      97       104a
        Institutions with follow-up required for areas
                                                                37       48      60      56
          related to Section 3.1
        Percentage                                             54%      65%     62%     54%
        a
            Includes institutions previously denied reaccreditation. These institutions were
             not included in the universe used for the sample selection.




2
 Of the remaining 27 institutions, 13 institutions were reaffirmed without condition, 10 institutions were
placed on warning, and 4 institutions were placed on notice. The section of this report titled
MANAGEMENT CONTROLS FOR ENSURING ENFORCEMENT OF STANDARDS provides
information on the “warning” and “notice” enforcement actions.
ED-OIG/A09-C0018	                                                                      Page 10 of 16



Substantive Changes

The regulations at 34 C.F.R. § 602.22 address the requirements for an accrediting agency’s
substantive change policy. Paragraph (a) of the section states—

       If the agency accredits institutions, it must maintain adequate substantive
       change policies that ensure that any substantive change to the educational
       mission, program, or programs of an institution after the agency has accredited
       or preaccredited the institution does not adversely affect the capacity of the
       institution to continue to meet the agency’s standards . . ..

Paragraph (a)(2) lists the types of changes that must be addressed by the agency’s policy.
The following listed changes could impact an institution’s adherence to the accrediting
agency’s standards on student achievement and measures of program length:

       (i) 	 Any change in the established mission or objectives of the institution…
       (iii) The addition of courses or programs that represent a significant departure, in
             either content or method of delivery, from those that were offered when the
             agency last evaluate the institution.
       (iv) 	 The addition of courses or programs at a degree or credential level above
              that which is included in the institution’s current accreditation or
              preaccreditation.
       (v) 	 A change from clock hours to credit hours

       (vi) 	 A substantial increase in the number of clock or credit hours awarded for
              successful completion of a program…

SACS’ substantive change policies complied with the Federal regulation. Ten of the
15 institutional files that we reviewed included substantive change requests. For these
10 institutions, we found that SACS followed its substantive change policies and procedures.
To ensure that institutions report substantive changes in program length, SACS provides training
on the subject and staff review institutions’ annual reports for significant increases in student
enrollments, which may indicate the addition of a new program.

Suggestions for Enhancing Management Controls
for Ensuring Adherence to Standards

To enhance its management controls for evaluating and monitoring institutions’ performance, we
suggest that SACS consider—
      Requiring peer evaluators to confirm the institution used SACS’ formulas for
       determining credit hours and report on the validity of justifications for any deviation.
      Requiring peer evaluators to report on institutional success with respect to student

       achievement for each educational program and the institution overall. 

ED-OIG/A09-C0018                                                                          Page 11 of 16



       Implementing procedures to monitor institutions’ adherence to the standards for student
        achievement during the accreditation period. For example, SACS could consider adding
        a requirement in its substantive change policy that institutions inform SACS of changes
        in their systems for determining institutional effectiveness. SACS could also consider
        having institutions provide the results of their assessments of student achievement for
        each educational program as part of their annual reports.

MANAGEMENT CONTROLS FOR ENSURING
ENFORCEMENT OF STANDARDS

When an institution or program is not in compliance with the accrediting agency’s standards,
the regulations at 34 C.F.R. § 602.20 require the agency to either “immediately initiate adverse
action against the institution... or... require the institution... to take appropriate action to bring
itself into compliance” within established timeframes.

SACS has policies and procedures that address its efforts to ensure enforcement of its standards
for student achievement and program length. The time allowed by SACS’ policies and
procedures for an institution to remedy a deficiency, together with the time for the Commission
to make a final decision, complies with timeframes specified in the regulations at
34 C.F.R. § 602.20(a).

SACS’ policy provides for four types of enforcement actions that it may impose according to
the seriousness of the deficiencies or the length of time the deficiencies have existed without
correction by the institution: notice, warning, probation, and removal from membership. The
Commission may place an institution on notice (a private sanction) or warning (a public
sanction) during the two years that institutions are monitored by follow-up reports. For more
serious deficiencies, the Commission may place an institution on probation.

If an institution has not remedied deficiencies at the conclusion of a two-year monitoring or
probation period, the Commission must either remove the institution from membership or
continue accreditation for “good cause.” An institution’s accreditation can be extended for
“good cause” if the Commission determines that the institution has—

       demonstrated significant recent accomplishments in addressing non-compliance, and
       documented that it has the “potential” to remedy all deficiencies within the extended
        period, and
       provided assurance to the Commission that it is not aware of any other reasons why the
        institution could not be continued for “good cause.”

During the period January 2000 through June 2002, SACS placed 61 institutions on notice,
61 institutions on warning, and 22 institutions on probation. One institution was removed from
membership.
ED-OIG/A09-C0018                                                                         Page 12 of 16



For the five sampled institutions with enforcement actions,3 we confirmed that SACS followed
its enforcement policies and procedures. For three institutions, corrective actions were taken
within the timeframes specified in 34 C.F.R. § 602.20(a). The allowed timeframe for correction
action has not yet expired for the other two institutions.

SACS Comments and OIG Response

In its comments on the draft report, SACS disagreed with the OIG’s conclusion that the agency’s
standards covering student achievement and program length have inherent limitations. SACS
did not provide specific comments addressing the OIG suggestions for its standards and
management controls, but stated it would forward the OIG suggestions to its Executive Council
of the Commission on Colleges for consideration at its Decembermeeting.

SACS Comment. SACS stated that its standard for student achievement does explicitly require
that an institution’s programs meet their defined educational result and cited the applicable
section of the 1998 Criteria for Accreditation. SACS also stated that information provided to the
OIG auditors demonstrates that the agency has been able to take enforcement action against
institutions offering programs which did not demonstrate student achievement. SACS stated that
the visiting committee members from similar institutions are able to compare educational results
when reviewing the data made available at the institution and making the initial determination
about compliance with the standard.

OIG Response. The 1998 Criteria for Accreditation and SACS’ new standards refer to goals,
major aspects, and mission, but do not make specific reference to the achievement of expected
student outcomes. The relevant sentence cited in SACS’ comments was taken from the
introductory paragraphs of the section on institutional effectiveness, which addresses educational
programs, administrative and educational support services, and institutional research. The
sentence states “[e]ducational quality will be judged finally by how effectively the institution
achieves its established goals.” SACS’ new standards state under Principles of Accreditation
that “an institution is expected to document quality and effectiveness in all its major aspects.”
Under Core Requirements, the new standards require a systematic review of programs that
“demonstrates that the institution is effectively accomplishing its mission.” While SACS has
successfully taken enforcement action against institutions with identified deficiencies in the areas
of institutional effectiveness, including student achievement, our position remains that SACS’
ability to take such actions would be strengthened if its standards explicitly stated that
educational programs must meet the institution’s defined expected student outcomes.

Even though visiting committee members may be from similar institutions, their institutions and
the reviewed institution may not use the same measures of student achievement. If institutions
with similar programs used the same measures, SACS and the visiting committee members could
better compare the educational results of the institutions accredited by SACS.



3
 The five institutions were judgmentally selected from the institutions with Commission actions during
calendar years 2000 and 2001. Since the sample was judgmentally selected, the results of our review may
not be representative of the entire population. The PURPOSE, SCOPE, AND METHODOLOGY section
of the report provides additional information on the sample selection methodology.
ED-OIG/A09-C0018                                                                     Page 13 of 16



SACS Comment. SACS stated that the 1998 Criteria for Accreditation stress what is important
regarding “measures of program length.” SACS stated “[I]t is not how much homework or how
much seat time is required; rather, the Criteria requires that an institution demonstrates that
learning takes place and when non-traditional formats are used... that institutions ‘demonstrate
that students completing these abbreviated programs or courses have acquired equivalent levels
of knowledge and competencies to those acquired in traditional formats.” SACS stated that it
has had no difficulty in enforcing its standard.

OIG Response. The SACS Executive Director informed us during our fieldwork that
quantitative formulas are used when evaluating program length and students are expected to
spend time on activities outside the classroom. The inclusion of these formulas, plus
clarification of the outside classroom work expected, in SACS’ standards or other publications
would clearly communicate the agency’s guidelines for evaluating program length and, thus,
enhance SACS’ ability to enforce its standard. Also, as we noted in the report, SACS’ new
standard covering program length, which will be effective in 2004, does not contain the language
cited in SACS’ comments. The enforcement of SACS’ new standard, which uses the term
“sound and acceptable practices,” would also be enhanced by publishing guidelines in its
standards or other publications. SACS provided no support for its statement that it has had no
difficulty in enforcing its standard and our review found no evidence to support the statement.
Our position remains that SACS’ ability to take enforcement actions would be strengthened if its
standards defined “sound and acceptable practices” in its new standards, including what
constitutes a credit hour for both traditional and non-traditional formats.

SACS Comment. SACS made some general comments regarding its agency and the OIG
review. First, SACS stated that if its membership or Commission does not approve the OIG
suggested changes, SACS staff has neither the prerogative nor an option to impose the change.
Second, SACS expressed its opinion that the general assumption inherent in the report is that the
only way quality can be verified is by mandating specific measures for student achievement.
SACS stated its concern that “[b]y creating ‘specific measures’ or acceptable thresholds, the peer
review process is restricted to only those measures and abandons its ability to look at an
institution in its entirety in order to make a determination about the comprehensive quality of an
institution and not just a part of the institution.” Third, SACS stated that “[d]eveloping even
more specific measures than those already included in the Criteria puts the Commission in a
vulnerable litigation position that relies on ‘measures’ and not quality as determined by
professional judgments.” Lastly, SACS viewed the OIG review as redundant with that of the
May 2001 review conducted by the Office of Postsecondary Education’s Accrediting Agency
Evaluation Unit. SACS stated that the May 2001 review deemed SACS in compliance with
applicable Federal regulations. `

OIG Response. The conclusions and suggestions contained in our management information
report are being provided to SACS and OPE to assist them in their oversight responsibilities.
SACS and OPE will have to determine what actions they will take in response to this report.

We did not suggest that SACS solely use specific measures and thresholds to evaluate success
with respect to student achievement. We concluded that the inclusions of specific measures and
thresholds would strengthen SACS’ standards, and suggested that SACS include such measures
and thresholds in its standards for vocational education programs to ensure the agency meets the
ED-OIG/A09-C0018                                                                       Page 14 of 16



expectation expressed by the Secretary in the preamble to the 1999 proposed rules. SACS
should be able to develop standards with specific measures for vocational education programs
that supplement the professional judgments of its peer reviewers without increasing the agency
vulnerability to litigation. As we stated in our initial letter to SACS, the Inspector General Act
of 1978 authorizes the OIG to conduct its own independent review of the agency.


                                       BACKGROUND
Founded in 1895, SACS is the regional agency for the accreditation of higher education
institutions in 11 Southern states—Alabama, Florida, Georgia, Kentucky, Louisiana, Mississippi,
North Carolina, South Carolina, Tennessee, Texas, and Virginia. SACS is governed by a
College Delegate Assembly, which meets annually and is comprised of one voting representative
from each accredited institution. The Assembly elects the members of SACS’ Commission on
Colleges, which meets semiannually to take final action on institutions’ accreditation and
approve revisions to the agency’s accreditation standards, policies and procedures. The
Commission is comprised of 77 chief executive officers, faculty, and experienced administrators
and public representatives. Thirteen of the Commission members serve on the Executive
Council, which acts for the Commission while it is not in session. The remaining
64 Commission members serve on the five Committees on Criteria and Reports. Each
Committee reviews institutional reports and recommends action to the Commission. The
Commission has 28 staff, which advise the Committees on Criteria and Reports and coordinate
efforts of educators and public representatives who volunteer in the regional accreditation
process.

SACS first gained Federal recognition in 1952. The Department most recently renewed the
agency’s recognition in December 2001 for a period of five years. During our review, SACS
accredited 784 colleges and schools.


                    PURPOSE, SCOPE, AND METHODOLOGY
The purpose of the review was to (1) identify SACS’ standards for success with respect to
student achievement and measures of program length as required under the HEA, Section 496,
and (2) evaluate SACS’ management controls for ensuring that institutions adhere to its
standards for student achievement and measures of program length and that consistent
enforcement action is taken when institutions are not in compliance with the standards.

For our review, we focused on the agency’s current standards related to the review objective and
the procedures that SACS used for monitoring and enforcing those standards. We reviewed
applicable Federal laws and regulations; reviewed SACS’ policies, procedures, and guidance;
and interviewed the Executive Director and several staff.

We reviewed institutional files for a total of 15 institutions. To evaluate SACS’ conformity with
its policies and procedures for monitoring adherence to accreditation standards, we judgmentally
selected 10 institutions from the 83 institutions due for reaccreditation in calendar year 2001.
We stratified the 83 institutions into three groups based on Commission action categories and
ED-OIG/A09-C0018                                                                      Page 15 of 16



judgmentally selected institutions based on student enrollment totals (half with higher
enrollments and half with lower enrollments).

                                                            Total in     Number
                           Commission Actions
                                                            Group        Selected
                 Reaffirmed without follow up                 13             2
                 Reaffirmed with follow up or on notice        60           6
                 Deny reaffirmation with on warning            10           2

To evaluate SACS’ conformity with its enforcement policies and procedures, we judgmentally
selected three institutions from the 26 institutions on the Commission’s Reports on
Accreditation Actions that had institutional effectiveness deficiencies and were denied
reaccreditation or on probation during calendar years 2000 and 2001. We also judgmentally
selected two institutions from a SACS-provided list of five institutions that were removed from
warning or probation during calendar year 2001.

SACS provided a list of 784 affiliate institutions as of March 2002. To confirm the
completeness of SACS list we compared it to a Departmental list that showed SACS as the
primary accrediting agency for 781 Title IV participant institutions. Since the difference
between SACS list of institutions and the Department’s list was insignificant, we concluded that
SACS listing of accredited institutions was sufficiently complete for our purposes. We
confirmed that the sample institutions selected from the universe of 83 institutions due for
reaccreditation in 2001 were included in the Department list of 781 Title IV institutions.

We performed our fieldwork at SACS’ office in Decatur, Georgia from March 21 through
March 28, 2002. We held an exit briefing with SACS officials on September 5, 2002. Our
review was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described.


                 STATEMENT ON MANAGEMENT CONTROLS
We assessed the system of management controls, policies, procedures, and practices applicable
to SACS’ process for monitoring and enforcing accreditation standards for student achievement
and program length. We performed our assessment to determine whether SACS’ processes
provided a reasonable level of assurance that the agency ensured that institutions adhered to
established standards and, when institutions were noncompliant, SACS took consistent
enforcement action.

For the purpose of this report, we assessed and classified significant controls related to SACS’
accreditation standards into the following categories:

          Monitoring institutions’ adherence to the standards, and 

          Taking enforcement action for noncompliant institutions. 

                                                                                                    !   II




ED-OIG/A09-C0018                                                                    Page 16 of16



The management of SACS is responsible for establishing and maintaining a management control
structure. In fulfilling this responsibility, judgments by management are required to assess the
expected benefits and related costs of control procedures. The objectives of the system are to
provide management with reasonable, but not absolute, assurance that institutions adhere to
accreditation standards and that enforcement action is taken when institutions are found to be
noncompliant with the standards.

Because of inherent limitations in any management control structure, errors and irregularities
may occur and not be detected. Also, projection of any evaluation of the system to future
periods is subject to risk that procedures may become inadequate because of changes in
conditions, or that the degree of compliance with the procedures may deteriorate.
In our opinion, the management control structure, taken as a whole, was sufficient to meet the
objectives stated above. However, we identified areas where management controls for ensuring
adherence to standards could be strengthened and offered suggestions for enhancing the controls,
as discussed in the REVIEW RESULTS section.


                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
suggestions in this report represent the opinions of the Office of Inspector General. In
accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office
of Inspector General are made available, if requested, to members of the press and general public
to the extent information contained therein is not subject to exemptions under the Act.




                                           ~Q~
                                             Gloria Pilotti
                                             Regional Inspector General for Audit

Attachment
        ATTACHMENT 

SACS’ Comments on the Draft Report 

                      SOUTHERN ASSOCIATION OF COLLEGES AND SCHOOLS 

                         COMMISSION ON COLLEGES 

                             1866 Southern Lane • Decatur, Georgia 30033-4097
                                Telephone 404/679-4500 Fax 404/679-4558
                                             www.sacscoc.org

                                          October 30, 2002


Ms. Gloria Pilotti
Regional Inspector General
 for Audit
U.S. Department of Education
 Office of Inspector General
501 I Street, Suite 9-200
Sacramento, CA 95814

Dear Ms. Pilotti:

Thank you for the opportunity to respond to the Draft Management Information Report entitled
Southern Association of Colleges and Schools, Commission on Colleges' Accreditation
Standards for Student Achievement and Program Length and for your suggestions for the
Commission's enhancement of its standards and management controls.

Before addressing the findings in your Report, we would like to make a few comments regarding
the role of regional accreditation and its structure. The Commission on Colleges is a vOluntary
association of higher education institutions that govern themselves through a representative,
flexible, and responsive system. This self-regulated system is supported by a staff, but all
decisions on standards, policies, and procedures are developed, reviewed, and approved by the
entire membership of 784 institutions or by its 77-member elected body (called the Commission on
Colleges). The staff of the Commission have neither the authority nor the opportunity to effect
changes to the standards, policies, and procedures. Only the membership or its elected
representatives have that authority. That authority is based in the charter of the regional
association (The Southern Association of Colleges and Schools) and the bylaws of the
Commission on Colleges. Therefore, any changes suggested by any federal body or agency are
forwarded to the 784 institutions or its elected representative Commission for review and approval.
If the membership or Commission does not approve the change, it is neither the prerogative nor an
option for the staff to impose the change. I mention this because we have found that federal and
state agencies with limitless bureaucracies that mandate rules to those being regulated tend to
think that the same mandate capability is operational for staffs employed by member institutions of
accrediting commissions. This clearly is not the case. This general misunderstanding on the part
of federal and state agencies leads them to expect changes in operations, standards, policies and
procedures that can only be accomplished through approval by the membership-a deliberative
and collegial body of institutions with a clear understanding of good educational practices and an
appreciation of the changes and challenges that higher education institutions face every day.
Ms. Gloria Pilotti
October 30, 2002
page two


My second general comment relates to the general assumption inherent in your Report that the
only way quality can be verified is by mandating specific measures for student achievement. It
appears that the Office of Inspector General expects that the Commission can develop "specific
measures" for student achievement that can be met by institutions when the membership is made
up of 784 very different institutions, some with similar but not identical purposes or missions. To
address this assumption, I call your attention to the following excerpt from the Commission's
Criteria for Accreditation (page 2) which states:

       "Accreditation by the Commission on Colleges is the result of thorough and careful
       evaluation of the educational quality of the institution. This qualitative evaluation depends
       heavily on the collective professional judgment of the faculty and administrative staff of the
       institution during the self-study process, peer review by a visiting committee, and final
       evaluation by the Commission. Professional judgment in the peer review process goes
       beyond a simple compliance audit of the minimum requirements in the Criteria and
       provides for quality assurance in accreditation."

By creating "specific measures" or acceptable thresholds, the peer review process is restricted to
only those measures and abandons its ability to look at an institution in its entirety in order to
make a determination about the comprehensive quality of an institution and not just a part of the
institution. A judgment on student achievement has to be a professional judgment based on
evidence provided by the institution and made by peers from similar institutions who can use their
own professional experiences to benchmark the evaluated institution against those institutions
similar in mission and in goals as they relate to student achievement.

The third general comment has to do with litigation against the Commission. In the past, our
accrediting commission's reliance on professional judgment has resulted in making tough
decisions regarding the accreditation of institutions (as indicated in the Report by the number of
institutions placed on Notice, Warning, and Probation). These professional judgments are based
on evidence analyzed for compliance and allow the Commission to look at the big picture and not
solely on "specific measures" that necessitate merely an audit mentality. Developing even more
specific measures than those already included in the Criteria puts the Commission in a vulnerable
litigation position that relies on "measures" and not quality as determined by professional
judgments.

The final general comment addresses the purpose of the Inspector General's review. You state
in your Report that the purpose of the Inspector General's audit was to evaluate (1) the validity of
SACS's established standards to address success with respect to student achievement and
measures of program length as required under HEA, Section 496, and (2) SACS' management
controls for ensuring that institutions adhere to the standards, and consistent enforcement is taken
when institutions are not in compliance with the standards. In our letter of March 14, 2002, we
indicated that we viewed the efforts of your office to be redundant with that of the accreditation
division of the Office of Postsecondary Education, which, as recently as May 2001, had conducted
an exhaustive review of our Commission's policies, procedures and practices, and concluded that
our accrediting body complied with all regulations under HEA, Section 496.
Ms. Gloria Pilotti
October 30, 2002
page three


More specifically, the following regulations of HEA Section 496 appear to be those that address
your objectives and are the same as those used for our Commission's review by the accreditation
division of OPE:

 1. 	   602.15, Administrative and fiscal responsibilities, requires accrediting bodies to have the
        administrative and fiscal capability to carry out its accreditation activities.

 2. 	   602.16, Accreditation and preaccreditation standards, requires that the Commission's
        standards effectively address the quality of the institution in two of the areas you outlined
        in your letter: success with respect to student achievement and measures of program
        length.

 3. 	   602.17, Application of standards in reaching accrediting decisions, requires our
        Commission to have effective mechanisms for evaluating an institution's compliance with
        our standards before reaching a decision on accreditation. Subsection (a) requires that
        we evaluate an institution to determine whether it "is successful in achieving its stated
        objectives," and subsection (f) that we provide a report to the institution analyzing the
        institution's compliance with standards and with its performance with respect to student
        achievement.

 4. 	   602.18, Ensuring consistency in decision-making, requires that the Commission have
        effective controls against the inconsistent application of standards, that we base our
        decisions regarding accreditation on the standards adopted by the membership, and that
        we have a reasonable basis for determining the accuracy of information provided by the
        institution in making the Commission's decisions.

 5. 	   602.19, Monitoring and reevaluating accredited institutions, requires the Commission to 

        conduct regular monitoring of institutions. 


 6. 	   602.20, Enforcement of standards, requires an accrediting body to take adverse action 

        against institutions that do not comply with its standards, with some allowance for good 

        cause. 


 7. 	   602.21, Review of standards, was revised during the 1998-99 period of negotiation. The
        language regarding requirements for validity and reliability was replaced by narrative that
        acknowledges the shift in expectation from quantitative evidence to that of qualitative
        evidence.

 8. 	   602.22, Substantive change, requires the Commission to maintain and implement
        adequate substantive change policies that ensure that any change to the educational
        mission, program, or programs of an institution between cyclical reviews is evaluated for
        ongoing compliance with Commission standards.

 9.     602.24 outlines additional procedures an accrediting agency must have, specifically as
        they apply to branch campuses and change in ownership.
Ms. Gloria Pilotti
October 30, 2002
page four


In accord with the above regulations, staff of the accreditation division of the Office of
Postsecondary Education of the U.S. Department of Education reviewed our application and the
policies, procedures, and documents referred to in the application and deemed our Commission to
be in compliance with all regulations of HEA Section 496. The evidence supporting that decision
was the same available to your staff on-site with very little modification since November 2000
when the Commission submitted its application for continued recognition to the OPE.

In terms of the findings in the Report, we have the following comments:

1.     SACS' Standard for Student Achievement

       Your Report states two limitations regarding the Commission's standard for student
       achievement:

               The agency may not be able to take enforcement action against institutions that
               are offering programs that have not demonstrated student achievement since the
               standards do not explicitly require that an institution's programs meet their defined
               educational results.

               The agency may not be able to compare educational results of institutions with
               similar missions and purposes because the institutions may not use similar
               measures.

       As regards the first point, the Criteria does explicitly require that an institution's programs
       meet their defined educational results when it states:

              "The Commission advocates no single interpretation of the concept of institutional
              effectiveness. It does, however, expect each member institution to develop a
              broad-based system to determine institutional effectiveness appropriate to its own
              context and purpose, to use the purpose statement as the foundation of planning
              and evaluation, to employ a variety of assessment methods, and to demonstrate
              use of the results of the planning and evaluation process for the improvement of
              both educational program and support activities. Educational quality will be judged
              finally by how effectively the institution achieves its established goals." (page 17)

       In addition, there is no question that the Commission takes enforcement action against
       institutions that are offering programs that have not demonstrated student achievement.
       The Commission provided the Inspector General's Office with a grid indicating actions
       taken by the Commission over a 4 ~ year period that relate directly to the quality of
       educational programs. The grid showed that of the 360 institutions seeking reaffirmation
       during that period, 207 were cited for failure to meet the criteria related to student
       achievement and the effectiveness of educational programs.
Ms. Gloria PiloUi
October 30, 2002
page five


       As regards the second point, the agency does compare educational results of institutions
       with similar missions and purposes because institutions are evaluated by visiting
       committee members from similar institutions who review the data made available on
       campus and make the initial determination about compliance with standards related to
       educational results.

2.     SACS' Standards for Measures of Program Length

       Your Report states that the Commission may have limited ability to take enforcement
       action when an institution's program length or credit hour assignments are questionable
       because the Commission's standards neither define what constitutes a credit hour nor
       specify the amount of outside class activities, such as homework.

       The Criteria for Accreditation stresses what is important regarding "measures of
       program length." It is not how much homework or how much seat time is required; rather,
       the Criteria requires that an institution demonstrates that learning takes place and when
       non-traditional formats are used, as in a growing number of cases, that institutions
       "demonstrate that students completing these abbreviated programs or courses have
       acquired equivalent levels of knowledge and competencies to those acquired in traditional
       formats." (page 36) To date, the Commission has had no difficulty in enforcing this
       criterion or any others directly or indirectly related to program length. During this time of
       innovation and creativity in the delivery of higher education, it is impossible to regress and
       try to "fit" all course work into a defined program length. The membership would never
       vote to create such limitations on their ability to deliver sound educational programs to
       students of all ages with varying goals.

We thank you for this opportunity to respond to your findings and to embellish on information
provided to Ms. Laura Montgomery during her visit to our offices. Your suggestions regarding
ways the Commission could enhance standards and management controls will be forwarded to the
Executive Council of the Commission on Colleges during its meeting this December. Any future
study groups to address these suggestions will be authorized by the Council and will eventually be
forwarded to the 77-member elected Commission and, where appropriate, to the entire
membership for review and approval.




JTRlCAL:ods

c:     Members of the Executive Council of the Commission on Colleges
                             REPORT DISTRIBUTION LIST
                                 ED-OIG/A09-C0018


Auditee                                                ED Action Official
James T. Rogers, Executive Director                     Sally Stroup, Assistant Secretary
Southern Association of Colleges and Schools,           Office of Postsecondary Education
   Commission on Colleges
1866 Southern Lane
Decatur, Georgia 30033-4097

                     Other Departmental Officials/Staff (electronic copy)

 Audit Liaison Officer                                       Assistant General Counsel
 Office of Postsecondary Education                           Office of the General Counsel

 Accreditation and State Liaison Staff Director              Deputy Secretary
 Office of Postsecondary Education                           Office of the Deputy Secretary

 Accrediting Agency Evaluation Chief                         Chief of Staff
 Office of Postsecondary Education                           Office of the Secretary

 Assistant Secretary                                         Under Secretary
 Office of Legislation and Congressional Affairs             Office of the Under Secretary

 Assistant Secretary                                         Director
 Office of Intergovernmental and Interagency Affairs         Office of Communications

 Director                                                    Chief Financial Officer
 Financial Improvement and Post Audit Operations             Office of the Chief Financial Officer
 Office of the Chief Financial Officer

 Post Audit Group Supervisor                                Chief Operating Officer
 Financial Improvement and Post Audit Operations            Federal Student Aid
 Office of the Chief Financial Officer

                                                             Correspondence Control
                                                             Office of General Counsel
